                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     EPA Can Help Consumers
                     Identify Household and Other
                     Products with Safer Chemicals
                     by Strengthening Its “Design
                     for the Environment” Program
                     Report No. 14-P-0349               September 9, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Laurie Adams
                                                     Daniel Carroll
                                                     Jerri Dorsey
                                                     Gabby Fekete
                                                     Jeffrey Harris




Abbreviations

DfE            Design for the Environment
EPA            U.S. Environmental Protection Agency
OIG            Office of Inspector General
PM             Performance Measure


Cover photo:      EPA photo illustrating the use of household cleaners.
                  (Design for the Environment website)


 Are you aware of fraud, waste or abuse in an           EPA Office of Inspector General
 EPA program?                                           1200 Pennsylvania Avenue, NW (2410T)
                                                        Washington, DC 20460
 EPA Inspector General Hotline                          (202) 566-2391
 1200 Pennsylvania Avenue, NW (2431T)                   www.epa.gov/oig
 Washington, DC 20460
 (888) 546-8740
 (202) 566-2599 (fax)
 OIG_Hotline@epa.gov                                    Subscribe to our Email Updates
                                                        Follow us on Twitter @EPAoig
 More information at www.epa.gov/oig/hotline.html.      Send us your Project Suggestions
                        U.S. Environmental Protection Agency                                                  14-P-0349
                                                                                                       September 9, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review             EPA Can Help Consumers Identify Household
We conducted this review of the    and Other Products with Safer Chemicals by
U.S. Environmental Protection
Agency’s (EPA’s) “Design for
                                   Strengthening Its “Design for the Environment”
the Environment” (DfE) Safer       Program
Product Labeling Program to
determine how effectively the       What We Found
program highlights safer
products for consumer use.         We found that the current DfE logo does not               Strengthened controls
                                   adequately communicate to the consumer that the           in the DfE program can
For more than 15 years, the        product is a safer product. We also found a risk that     help consumers better
DfE Safer Product Labeling         an EPA endorsement of DfE products may be                 identify safer products.
Program has labeled products       implied by the current logo, but EPA endorsement is
that meet the criteria to be       not allowed. The EPA also lacks sufficient controls over the use of its DfE logo by
considered safer for families      former program participants. This can be misleading for consumers and is a
and the environment. According     violation of the DfE partnership agreement.
to the EPA, the DfE logo means
that the product contains only     We also found that the EPA asserts that DfE products are cost effective, but this
those ingredients that pose the    has not been determined or reviewed. Further, there are weaknesses in both
least concern among chemicals      former and proposed performance measures used by the DfE program and the
in their class. DfE products       EPA cannot accurately determine the program’s impact on pollution prevention.
include car care products,
carpet cleaners, dish and hand     Addressing the issues noted should further EPA goals, better promote safer
soaps, floor care products,        products, and support DfE brand recognition among consumers.
laundry detergents, and glass
cleaners.                           Recommendations and Agency Planned Corrective Actions
The report addresses the           We recommend that the Assistant Administrator for Chemical Safety and Pollution
following EPA goal or              Prevention improve the DfE logo, periodically review program participants’
cross-agency strategy:             compliance with partnership agreements and address noncompliance with those
                                   agreements, remove statements on the EPA’s website that imply that DfE
  Ensuring the safety of          products are cost effective, and improve performance measurement. The EPA
   chemicals and preventing        agreed with our recommendations and proposed acceptable corrective actions.
   pollution.                      The agency fully addressed one recommendation and it is therefore closed, while
                                   the remaining recommendations are resolved with corrective actions underway.

                                    Noteworthy Achievements

Send all inquiries to our public   DfE has evaluated and approved more than 2,500 products to carry the DfE logo.
affairs office at (202) 566-2391   The EPA updated the Safer Chemical Ingredients List in 2014, adding over
or visit www.epa.gov/oig.          50 chemical ingredients and bringing the number of safer chemical ingredients to
                                   approximately 650. DfE has also developed a new database system that will
The full report is at:             enable the agency to better manage chemical, partner and product information in
www.epa.gov/oig/reports/2014/      a cloud-based system.
20140909-14-P-0349.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                     THE INSPECTOR GENERAL




                                           September 9, 2014

MEMORANDUM

SUBJECT:       EPA Can Help Consumers Identify Household and Other Products with Safer Chemicals
               by Strengthening Its “Design for the Environment” Program
               Report No. 14-P-0349

FROM:          Arthur A. Elkins Jr.

TO:            Jim Jones, Assistant Administrator
               Office of Chemical Safety and Pollution Prevention

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe problems the
OIG has identified and corrective actions the OIG recommends. This report represents the opinion of the
OIG and does not necessarily represent the final EPA position. Final determinations on matters in this
report will be made by EPA managers in accordance with established audit resolution procedures.

The EPA office having primary responsibility for the issues evaluated in this report is the Office of
Chemical Safety and Pollution Prevention’s Office of Pollution Prevention and Toxics.

Action Required

You are not required to provide a written response to this final report because you provided agreed-to
corrective actions and planned completion dates for the report recommendations. The OIG may make
periodic inquiries on your progress in implementing these corrective actions. Should you choose to
provide a final response, we will post your response on the OIG’s public website, along with our
memorandum commenting on your response. You should provide your response as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended.

We will post this report to our website at http://www.epa.gov/oig.
EPA Can Help Consumers Identify                                                                                              14-P-0349
Household and Other Products with Safer Chemicals
by Strengthening Its “Design for the Environment” Program




                                     Table of Contents
   Purpose......................................................................................................................   1

   Background ...............................................................................................................      1

   Responsible Office ....................................................................................................         2

   Noteworthy Achievements .......................................................................................                 2

   Scope and Methodology ...........................................................................................               3

   Results of Review .....................................................................................................          3

           EPA’s DfE Goals Can Be Enhanced Through Logo Improvements.....................                                          4
           EPA’s DfE Website Has Unsupported Program Benefit Claims ..........................                                     5
           Weaknesses Exist in EPA’s Measurement of DfE Program Results ...................                                        5

   Conclusions...............................................................................................................       6

   Recommendations ....................................................................................................            7

   Agency Comments and OIG Evaluation ..................................................................                           7

   Status of Recommendations and Potential Monetary Benefits .............................                                         8



 Appendices
   A       Agency Response to Draft Report...................................................................                      9

   B       Distribution .......................................................................................................    12
Purpose
            Our objective was to determine how effectively the U.S. Environmental
            Protection Agency’s (EPA’s) “Design for the Environment” (DfE) Safer Product
            Labeling Program is highlighting safer products for consumer use.

Background
            The DfE program is one of the EPA’s pollution prevention programs. The EPA’s
            pollution prevention programs are designed to reduce or eliminate waste at the
            source by modifying production processes, promoting the use of non-toxic or
            less-toxic substances, implementing conservation techniques, and re-using
            materials. The DfE achieves pollution prevention by promoting safer product
            design and green chemistry. Based on data reported by the EPA, DfE is being
            reported as the agency’s most successful pollution prevention program in
            reducing reported pounds of hazardous materials—the DfE alone accounted for
            nearly half of all EPA-claimed pollution reductions in recent years.

            The DfE program incentivizes companies to manufacture products that contain
            safer chemicals than other alternative products on the market. Companies can join
            the program and label their products as DfE-certified if they have met the
            program’s standards. The process used by the EPA to qualify products for the DfE
            labeling program is illustrated in figure 1.

            Figure 1: DfE Product Qualification Process




            Source: DfE program.




14-P-0349                                                                                    1
            The DfE logo, as shown in figure 2, is the EPA’s label         Figure 2: DfE Logo
            for safer chemical products. For over 15 years, the DfE
            Safer Product Labeling Program has labeled products
            that meet the criteria to be considered safer for families
            and the environment. According to the EPA, when the
            DfE label appears on a product, it means that each
            ingredient in the product has been screened for potential
            human health and environmental effects and that the
            product contains only those ingredients that pose the          Source: DfE website.
            least concern among chemicals in their class. DfE-
            labeled products include all-purpose cleaners, dishwasher detergents, car care
            products, carpet cleaners, dish and hand soaps, floor care products, laundry
            detergents and softeners, leather cleaners, toilet bowl and tub/tile cleaners,
            window/glass cleaners, and wood cleaners.

            Applicants for the DfE label must fully disclose all ingredients to the DfE
            program and a qualified third-party profiler. Currently there are two third-party
            profiler companies. For each DfE product, a third-party profiler compiles hazard
            information on each chemical ingredient, including its detailed structure,
            physical-chemical properties, human health and environmental toxicology, and
            regulatory status. A product is only allowed to carry the DfE label if each
            ingredient is among the safest in its ingredient class. Additionally, the product as
            a whole has to meet safety criteria, qualify as high performing, and be packaged
            in an environmentally friendly manner. Once products are approved by DfE, each
            manufacturer must sign a partnership agreement that outlines the program’s
            requirements, including audits and product renewals.

Responsible Office
            The EPA office having primary responsibility for the DfE program is the Office
            of Chemical Safety and Pollution Prevention’s Office of Pollution Prevention and
            Toxics.

Noteworthy Achievements
            DfE has evaluated and approved more than 2,500 products to carry the DfE logo.
            In 2012, the EPA developed the Safer Chemical Ingredients List, which contains
            chemicals that meet the criteria of the DfE Safer Product Labeling Program. In 2014,
            the EPA updated the list by adding over 50 chemicals, bringing the number of safer
            fragrance chemical ingredients to over 150 and the total number of safer chemical
            ingredients to approximately 650.

            Additionally, DfE has developed the “DfE Product Portal” database, providing
            pertinent program-related information within one internal database system.
            According to the EPA, the primary function of this database is to manage
            chemical, partner and product information in a cloud-based system. The new


14-P-0349                                                                                         2
            system will address shortcomings of the prior, outdated database and address
            functional needs of the program. For example, the database will lend itself to
            faster review of partnership applications and access to historical data related to
            partnership history and decisions.

Scope and Methodology
            We conducted our work from November 2013 through July 2014. We conducted
            this performance audit in accordance with generally accepted government
            auditing standards. Those standards require that we plan and perform the audit to
            obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our audit objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our audit objectives.

            We reviewed relevant materials, including laws, policies, procedures and reports.
            We documented the universe of DfE consumer products. We randomly selected a
            sample item from each of the eight product categories that had 25 or more
            approved products and we reviewed the files held by the EPA for those products.
            Specifically, we reviewed the requirements under the program, documentation
            provided by the third-party profilers, audit results and product labels. We also
            reviewed a sample of 30 products to determine compliance with label
            requirements.

            We interviewed key agency staff, including the DfE Program Chief and the staff
            charged with reviewing third-party profiler decisions, developing alternatives
            assessments and new sector standards, reporting on performance measures, and
            promoting the DfE program. We interviewed the head toxicologists at the two
            third-party profilers who conduct the product assessments for the DfE program.

            We reviewed the program’s goals and measures, with particular focus on how the
            measures are calculated and reported over time. We conducted a brief inspection
            at the retail-store level to assess consumer ability to easily detect safer product
            labeling information.

Results of Review
            The DfE program intends to help consumers make wise choices by identifying
            safer products. However, we found issues in the design and use of the program
            logo that impede brand recognition. There is also the potential for consumers to
            draw the interpretation that EPA endorses DfE products, which is not allowed,
            and potential misuse of the logo by former program participants. Also, the agency
            asserts that DfE products are cost effective, but this has not been determined or
            reviewed. Further, we found weaknesses in how the performance of the DfE
            program is measured.



14-P-0349                                                                                        3
                  EPA’s DfE Goals Can Be Enhanced Through Logo Improvements

                  The EPA states that the DfE label helps consumers easily choose safer products.
                  However, we identified factors in the design and placement of the label that could
                  impede product promotion and DfE brand recognition. We also found issues
                  potentially impacting the integrity of the DfE logo.

                  The current DfE logo does not adequately communicate to the consumer that the
                  product is a safer product. DfE has acknowledged that the DfE mission to
                  promote “safer chemical based products” is not conveyed by the current logo. The
                  agency received stakeholder feedback showing that the logo does not fully and
                  effectively communicate DfE’s mission. Furthermore, the manufacturers’ typical
                  placement of the DfE label on the back of its products inhibits the promotion of
                  “safer chemical based products.” Consumers would need to pick up, turn around
                  and examine a product to see the DfE labeling.

                  The prominent use of “U.S. EPA” on the logo (see figure 2) may lead consumers
                  to draw the interpretation that EPA endorses products that have the label. DfE
                  program documents state that EPA/DfE recognition does not constitute
                  endorsement of a product. According to the DfE partnership agreement, partners
                  agree to include on any advertising of the DfE-qualifying products an
                  endorsement disclaimer.1 The disclaimer disavows any EPA product
                  endorsement. Additionally, partners are to work with the EPA to find an
                  appropriate place (e.g., company website) to include the disclaimer.

                  According to EPA staff, because of the length of the disclaimer statement, most
                  manufacturers place the disclaimer on their websites. To test this, we randomly
                  sampled 30 DfE products and found this language was not included on the
                  webpages for all but one of the products sampled. Therefore, there is a substantial
                  risk that an EPA endorsement of DfE products is implied and could be so
                  perceived by consumers. The EPA may need to strengthen controls in this area or
                  remove the “U.S. EPA” from the DfE logo to eliminate any perceived EPA
                  endorsement.

                  The EPA also lacks sufficient controls over the use of its DfE logo by former DfE
                  program participants. We found one instance in which the DfE logo was used on a
                  website of a DfE partner that is no longer in the program. We also found a past
                  program participant that acknowledges on its website that it no longer carries the
                  DfE label on its products but that many of its products are still “DfE recognized.”

1
  Required Disclaimer: EPA/DfE recognition does not constitute endorsement of this product. The Design for the
Environment logo signifies that the formula for this product, as «Company Partner» has represented it to the EPA,
contains ingredients with more positive health and environmental characteristics than conventional cleaners.
EPA/DfE relies solely on «Company Partner», its integrity and good faith, for information on the composition,
ingredients, and attributes of this product. EPA/DfE has not independently identified, i.e., via chemical analysis, the
ingredients in the product formula, nor evaluated any of a Company’s noningredient claims. EPA/DfE provides its
evaluation only as to the environmental and human health characteristics of the product, based on currently available
information and scientific understanding.


14-P-0349                                                                                                            4
            This is misleading for consumers, inconsistent with the program’s purpose of safe
            product promotion, and a violation of the DfE partnership agreement.

            We also found the logo for the Safe Detergent Stewardship Initiative has a design
            similar to the DfE program logo. Since the two programs have separate and
            distinct eligibility requirements, it is important that their logos also be distinct to
            avoid confusing or misleading consumers.

            EPA’s DfE Website Has Unsupported Program Benefit Claims

            The EPA’s website states that:

                    EPA’s Design for the Environment program helps consumers,
                    businesses, and institutional buyers identify cleaning and other
                    products that perform well, are cost-effective, and are safer for
                    the environment.

            However, the DfE program does not have controls in place to ensure one of these
            three claims—cost effectiveness. The DfE review process includes an assessment
            of each of the ingredients in a potential product to ensure that the product contains
            only those ingredients that pose the least concern among chemicals in their class.
            We found that the files documenting the process for accepting partners into the
            DfE program were adequate and maintained. However the agency does not have
            evidence in its files to support that DfE products are cost effective. The current
            review process to qualify products does not include any review of cost
            effectiveness. The agency should ensure that language describing the program’s
            benefits is accurate and not misleading.

            Weaknesses Exist in EPA’s Measurement of DfE Program Results

            The EPA has used results from the DfE program to support two of the agency’s
            Government Performance and Results Act measures. Specifically:

                   Performance Measure (PM) 264, pounds of hazardous materials reduced
                    through pollution prevention.
                   PM P25, percent increase in use of safer products.

            However, DfE results data are not appropriate or valid to support either measure.
            This is significant because DfE accounted for nearly half of all EPA-claimed
            hazardous material reductions (PM 264) in recent years.

            DfE’s contribution to PM 264 was calculated by multiplying the average annual
            production volume of safer products by the number of DfE labeled products at
            year end. However, the use of average production volume is inconsistent with the
            definition for PM 264. PM 264 is supposed to measure the reduction of hazardous
            materials, but the DfE metric focused on production of safer chemicals. Thus, this



14-P-0349                                                                                         5
            metric did not reflect the amount of hazardous materials reduced as reported
            under PM 264. In addition, an outdated formula was used to generate the DfE
            average production volume. The formula was based on data from eight
            participating manufacturers in 2006, but as of February 2014 half of those
            manufacturers were no longer partners in the DfE program.

            DfE program results data were also used to show EPA progress on the percent
            increase in the use of safer products (PM P25). However, as noted above, the DfE
            program measured the overall production of products with safer chemicals and
            not changes in the use of safer products. Therefore, using DfE program results
            data to support PM P25 was inappropriate.

            During our review, the EPA modified how DfE results were reported. DfE results
            have been removed from the agency’s performance measure that reports pounds
            of hazardous materials reduced through pollution prevention. The agency will
            also no longer use calculated average production volume of safer chemicals in
            support of any measures. The agency has decided to no longer report on the
            measure of percent increase in use of safer products.

            Beginning with fiscal year 2015, a new DfE program measure will be used to
            track program results. This measure calculates the number of products that have
            earned the DfE label and the number of chemicals listed on the Safer Chemical
            Ingredients List. This new DfE measure provides relevant and updated
            information on outputs. However, while the new measure is important, it has key
            limitations. Counts of products that are labeled safer and chemicals on the Safer
            Chemical Ingredients List do not provide evidence that consumers are actually
            purchasing and using these products instead of other products and, thus, having
            the desired pollution prevention and risk reduction impact. Without measures that
            better capture the use or sale of DfE products, the EPA will be limited in
            accurately projecting the outcomes and impacts of this program, including its
            desired impact on pollution prevention.

Conclusions
            The DfE program is designed to help consumers make wise choices by identifying
            safer products. There are more than 2,500 products that carry the DfE logo, and
            the EPA has expressed interest in continuing to grow the program. The current
            DfE logo design and EPA-acknowledged low consumer recognition of the logo
            impedes the agency’s goal to promote safer chemical-based products through the
            DfE program. Further, use of the logo by those who left the program, as well as
            by other EPA programs with different eligibility requirements, could negatively
            impact the overall integrity and value of the DfE logo. Improving the DfE logo
            should further the EPA’s goals, better promote safer products, and support DfE
            brand recognition among consumers. In addition, having valid measures that
            capture DfE program results will strengthen the EPA’s ability to accurately
            determine program benefits and contributions to pollution prevention.


14-P-0349                                                                                   6
Recommendations
            We recommend that the Assistant Administrator for Chemical Safety and
            Pollution Prevention:

               1. Design a unique DfE logo that better conveys the program’s objective and
                  eliminates any appearance of an EPA endorsement.

               2. Periodically review program participants’ compliance with the DfE
                  partnership agreement as it relates to appropriate use of DfE program
                  language, including disclaimers and labeling requirements.

               3. Develop and implement controls for accomplishing removal of the DfE
                  logo from the websites of partners who leave the program.

               4. Take appropriate action to address noncompliance with DfE partnership
                  agreements discovered as a result of this review.

               5. Remove statements on the EPA’s website that imply or suggest that the
                  EPA has determined that DfE products are a cost-effective choice, unless
                  valid work to support that assessment has been completed.

               6. Develop robust, transparent and adequately supported performance
                  measures that capture the DfE program’s results.

Agency Comments and OIG Evaluation
            The agency agreed with our findings and recommendations, and provided
            corrective actions and estimated completion dates that meet the intent of the
            recommendations. The agency has fully addressed recommendation 5 and,
            therefore, it is closed. Based on the agency’s written response to the report and a
            meeting to discuss the agency’s response, we have determined that the remaining
            recommendations are resolved and open with corrective actions ongoing. No
            further response to this report is required. The agency’s detailed response is in
            appendix A. The agency also provided a technical comment on the draft report,
            which we have incorporated into our report as appropriate.




14-P-0349                                                                                         7
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed-To
    No.      No.                        Subject                        Status1        Action Official             Date      Amount      Amount

     1        7    Design a unique DfE logo that better conveys the         O    Assistant Administrator for    3/31/15
                   program’s objective and eliminates any                          Chemical Safety and
                   appearance of an EPA endorsement.                               Pollution Prevention

     2        7    Periodically review program participants’                O    Assistant Administrator for    12/31/14
                   compliance with the DfE partnership agreement as                Chemical Safety and
                   it relates to appropriate use of DfE program                    Pollution Prevention
                   language, including disclaimers and labeling
                   requirements.

     3        7    Develop and implement controls for accomplishing         O    Assistant Administrator for    6/30/15
                   removal of the DfE logo from the websites of                    Chemical Safety and
                   partners who leave the program.                                 Pollution Prevention

     4        7    Take appropriate action to address noncompliance         O    Assistant Administrator for    6/30/15
                   with DfE partnership agreements discovered as a                 Chemical Safety and
                   result of this review.                                          Pollution Prevention

     5        7    Remove statements on the EPA’s website that              C    Assistant Administrator for     8/8/14
                   imply or suggest that the EPA has determined that               Chemical Safety and
                   DfE products are a cost-effective choice, unless                Pollution Prevention
                   valid work to support that assessment has been
                   completed.

     6        7    Develop robust, transparent and adequately               O    Assistant Administrator for    9/30/15
                   supported performance measures that capture the                 Chemical Safety and
                   DfE program’s results.                                          Pollution Prevention




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-P-0349                                                                                                                                      8
                                                                                    Appendix A

                   Agency Response to Draft Report

                                          August 8, 2014

MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Report No. OPE-FY14-0008
               “EPA Can Help Consumers Identify Safer Chemical Products by Strengthening
               Its “Design for the Environment” Program,” dated July 9, 2014

FROM:           James J. Jones
                Assistant Administrator for Chemical Safety and Pollution Prevention

TO:             Arthur A. Elkins, Jr.
                Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject report.
This memorandum provides the Agency’s response to OIG’s recommendations, and identifies
corrective actions the Agency will be taking in response.

One item in the draft OIG report, which we did not comment on in our response to the
discussion draft, pertains to the use of the DfE logo by another EPA pollution prevention
initiative. The example cited in page 5 of the draft report is the DfE Safer Detergents
Stewardship Initiative (SDSI). We propose a technical correction to the OIG report to replace
the subject paragraph to more completely reflect how DfE has managed use of the DfE Safer
Product Labeling Program logo (Attachment A).

The report contains a total of six recommendations. Below we list each recommendation and
the OCSPP response, including timeframes for implementation.

Recommendation 1. Design a unique DfE logo that better conveys the program’s objective and
fully eliminates any appearance of an EPA endorsement.

       OCSPP agrees. We are in the process of redesigning the DfE logo to enhance its ability
       to communicate with consumers, attract the interest of product and chemical
       manufacturers, and increase the frequency of the logo’s use on products to meet the
       human and environmental health protection goals of the program. We have worked with
       the Agency’s Office of General Counsel to ensure that the redesigned logo complies with
       ethics considerations on use of the EPA name and potential endorsements.

       Timeline. We will be gathering stakeholder and public comment on our logo designs this
       summer and fall. We plan to have a new, more effective logo for use on DfE-labeled
       products early in 2015. Completion date: Q2/FY15.


14-P-0349                                                                                           9
Recommendation 2. Periodically review program participants’ compliance with the DfE
partnership agreement as it relates to appropriate use of DfE program language, including
disclaimers and labeling requirements.

       With respect to DfE partner posting of endorsement disclaimers, the DfE program will
       enhance its regular auditing procedures to ensure that auditors look for the disclaimer
       language and note its absence in audit reports.

       Timeline. We have instructed the third party auditors to include inspection for
       endorsement disclaimers in their audits and reports. The revised auditing process has
       been initiated (DfE email correspondence dated August 4, 2014); all desk audits
       beginning October 1, 2014 will include this component. Completion date: Q1/FY15 and
       ongoing.

Recommendation 3. Develop and implement controls for accomplishing removal of the DfE
logo from the websites of partners who leave the program.

       The DfE program will increase efforts to ensure that former partners do not use the logo.
       When a new program management system comes online, DfE will be able to better
       monitor and enforce appropriate use of the logo by current and former partners, as well as
       partner posting of the endorsement disclaimer.

       Timeline. The new program management system is expected online this spring as a
       program monitoring tool, including to help ensure appropriate logo and endorsement
       disclaimer use. Completion date: Q3/FY15 and ongoing.

Recommendation 4. Take appropriate action to address noncompliance with DfE partnership
agreements discovered as a result of this review.

       As stated in our response to recommendations 2 and 3, the DfE program will increase its
       follow- up activities to address and remedy partner noncompliance, and we expect our
       new program management system to help considerably in this regard.

       Timeline: As indicated in our response to recommendation 3, the new program
       management system is expected online this spring. Completion date: Q3/FY15 and
       ongoing

Recommendation 5. Remove statements on the EPA’s website that imply or suggest that the
EPA has determined that DfE products are a cost-effective choice, unless valid work to support
that assessment has been completed.

       OCSPP will remove this claim from the DfE web site and outreach materials. DfE
       historical documents may also contain reference to cost-effectiveness. DfE will
       implement this change in technical documents as they are updated.

       Timeline. DfE has removed this claim from its web site and outreach materials.
       Completed: Q4/FY14


14-P-0349                                                                                        10
Recommendation 6. Develop robust, transparent and adequately supported performance
measures that capture the DfE program’s results.

       OCSPP agrees that DfE performance measures capturing outcomes need to be developed.
       The new program management system referenced above will help capture relevant data
       such as production volumes and sales information on DfE-labeled products.

       Timeline. DfE continues to work on new outcome-oriented performance measures and
       hopes to have them in place this fall. The new program management system should
       begin capturing these measures by the summer of 2015. Completion date: Q4/FY15.

If you have any questions or need further information about this response, please contact
Deborah Hartman, OCSPP’s Audit Liaison at (202) 564-1488.




14-P-0349                                                                                   11
                                                                                  Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Chemical Safety and Pollution Prevention
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Assistant Administrator for Chemical Safety and Pollution Prevention
Audit Follow-Up Coordinator, Office of Chemical Safety and Pollution Prevention




14-P-0349                                                                                 12
